               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00929-287


Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

Tennessee Valley Healthcare System 

       Nashville, Tennessee 





September 25, 1014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN



                                            Glossary
                       ADA        Americans with Disabilities Act
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    13

  C. VISN Director Comments ..................................................................................                    17

  D. Facility Director Comments ...............................................................................                   18

  E. OIG Contact and Staff Acknowledgments .........................................................                              24

  F. Report Distribution .............................................................................................            25

  G. Endnotes ............................................................................................................        26





VA OIG Office of Healthcare Inspections
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of August 11, 2014, at the Maury
County CBOC, Columbia, TN, which is under the oversight of the Tennessee Valley
Healthcare System and Veterans Integrated Service Network 9.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Provider review. However, we made recommendations in
the following three review areas:

Environment of Care. Ensure that:

	 The CBOC is Americans with Disabilities Act accessible at the Maury County CBOC.

	 The Maury County CBOC maintains a current inventory of hazardous materials and
   tracks usage.

	 All staff can access the electronic version of hazardous materials information at the
   Maury County CBOC.

	 Signage at the Maury County CBOC clearly identifies the locations of all fire
   extinguishers.

	 All medications are secured from unauthorized access.

	 Personally identifiable information is protected by securing laboratory specimens
   during transport from the Maury County CBOC to the parent facility.

	 The information technology server closet at the Maury County CBOC is maintained
   according to information technology safety and security standards.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	 Patients with excessive, persistent alcohol use receive brief treatment or are
   evaluated by a specialty provider within 2 weeks of the screening.

	 Registered Nurse Care Managers receive motivational interviewing and health
   coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	 Document that medication reconciliation was completed at each episode of care
   where the newly prescribed fluoroquinolone was administered, prescribed, or
   modified.


VA OIG Office of Healthcare Inspections                                                       i
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


	 Consistently provide patients with medication counseling and written medication
   information that includes the fluoroquinolone.

	 Document the evaluation of patient’s level of understanding for the medication
   education.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 17–23, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                            CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                           CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and Registered Nurse (RN)
                               Care Managers assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All Women’s Health (WH) Primary Care Provider’s (PCPs)
                               designated as DWHPs as of October 1, 2012, and who
                               remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Maury County
CBOC. The table below shows the areas reviewed for this topic. The areas marked as NM did
not meet applicable requirements and needed improvement.

Table 2. EOC

 NM                    Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available
       that clearly identifies the route to and
       location of the clinic entrance.
  X    The CBOC is ADA accessible.                      The door between the lobby and clinical areas
                                                        was not ADA accessible at the Maury County
                                                        CBOC.

                                                        A bathroom door in the Maury County CBOC
                                                        lobby was not ADA accessible and required tight
                                                        grasping, pinching, or twisting of the wrist to
                                                        operate.
       The furnishings are clean and in good repair.
       The CBOC is clean.
  X    The CBOC maintains a written, current            An inventory of hazardous materials was not
       inventory of hazardous materials and waste       maintained or tracked at the Maury County
       that it uses, stores, or generates, and staff    CBOC.
       has access to hazardous materials
       information.                                     The staff at the Maury County CBOC could not
                                                        demonstrate how to access the electronic
                                                        version of hazardous materials information
                                                        without coaching.
  X    An alarm system and/or panic buttons are         The Maury County CBOC provides MH services
       installed and tested in high-risk areas (e.g.,   and had only one panic button located in one
       MH clinic).                                      provider’s office in the high-risk MH area.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.


VA OIG Office of Healthcare Inspections                                                                 3
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN

 NM            Areas Reviewed (continued)                                   Findings
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
  X    The CBOC has signs identifying the               There was no sign identifying the location of one
       locations of fire extinguishers.                 of the fire extinguishers at the Maury County
                                                        CBOC.
       Exit signs are visible from any direction.
       No expired medications were noted during
       the onsite visit.
  X    All medications are secured from                 All medications were not secured from
       unauthorized access.                             unauthorized access at the Maury County
                                                        CBOC.
  X    Personally identifiable information is           At the Maury County CBOC, personally
       protected on laboratory specimens during         identifiable information was not protected on
       transport so that patient privacy is             laboratory specimens prior to or during
       maintained.                                      transport.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
  X    The IT network room/server closet is             Access to the IT network room/server closet at
       secured, and access is documented.               the Maury County CBOC was not restricted to
                                                        personnel authorized by the Office of
                                                        Information and Technology.

                                                        Access to the IT network room/server closet at
                                                        the Maury County CBOC was not documented.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by
       the EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance
       with Joint Commission standards.




VA OIG Office of Healthcare Inspections                                                                  4
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN

  NM            Areas Reviewed (continued)                                 Findings
       The parent facility’s Emergency
       Management Committee evaluates CBOC
       emergency preparedness activities,
       participation in annual disaster exercise, and
       staff training/education relating to emergency
       preparedness requirements.

Recommendations

1. We recommended that the CBOC is Americans with Disabilities Act accessible at the Maury
County CBOC.

2. We recommended that managers ensure staff can access the electronic version of
hazardous materials information at the Maury County CBOC.

3. We recommended that processes are improved to ensure the tracking of hazardous
materials at the Maury County CBOC.

4. We recommended that the effectiveness of the panic alarm system is evaluated at the Maury
County CBOC.

5. We recommended that signage is installed at the Maury County CBOC to clearly identify the
location of fire all extinguishers.

6. We recommended that medications are secured and accessible only by individuals who
either dispense or administer medications at the Maury County CBOC, and that compliance is
monitored.

7. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens during transport from the Maury County CBOC to the parent
facility.

8. We recommended that that that the information technology server closet at the Maury
County CBOC is maintained according to information technology safety and security standards.




VA OIG Office of Healthcare Inspections                                                                5
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN

AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                   Areas Reviewed                                       Findings
       Alcohol use screenings are completed
       during new patient encounters, and at least
       annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with
       positive alcohol screens and drinking levels
       above National Institute on Alcohol Abuse
       and Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
  X    Counseling, education, and brief treatments      Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of           positive screening for 4 of 13 patients.
       positive screening.
  X    CBOC/PCC Registered Nurse Care                   We found that 10 of the 18 Registered Nurse
       Managers have received motivational              Care Managers did not receive motivational
       interviewing training within 12 months of        interviewing training within 12 months of
       appointment to PACT.                             appointment to PACT.
  X    CBOC/PCC Registered Nurse Care                   We found that 8 of 18 Registered Nurse Care
       Managers have received VHA National              Managers did not receive health coaching
       Center for Health Promotion and Disease          training within 12 months of appointment to
       Prevention-approved health coaching              PACT.
       training (most likely TEACH for Success)
       within 12 months of appointment to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.




VA OIG Office of Healthcare Inspections                                                                6
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN

10. We recommended that CBOC and Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training and health coaching training within 12 months of
appointment to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                7
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                    Areas Reviewed                                     Findings
  X     Clinicians documented the medication         We did not find documentation that medication
        reconciliation process that included the     reconciliation included the newly prescribed
        fluoroquinolone.                             fluoroquinolone in 12 (30 percent) of 40 patient
                                                     EHRs.
  X     Written information on the patient’s         We did not find documentation that 17
        prescribed medications was provided at the   (43 percent) of 40 patients received written
        end of the outpatient encounter.             information that included the fluoroquinolone.
  X     Medication counseling/education for the      We did not find documentation of medication
        fluoroquinolone was documented in the        counseling that included the fluoroquinolone in 9
        patients’ EHRs.                              (23 percent) of 40 patients.
  X     Clinicians documented the evaluation of each Clinicians did not document the level of
        patient’s level of understanding for the     understanding for 5 (13 percent) of 40 patients.
        education provided.
        The facility complied with local policy.


Recommendations

11. We recommended that staff document that medication reconciliation was completed at
each episode of care where the newly prescribed fluoroquinolone was administered,
prescribed, or modified.

12. We recommended that staff consistently provide patients with medication counseling and
written medication information that includes the fluoroquinolone.

13. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                8
                                 CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

 NM                   Areas Reviewed                                        Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                9
                                                                        CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                                                                     Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                     Uniques4                                      Encounters4

                               Station    Locality      CBOC
      Location       State                    5                      MH7         PC8       Other9        All         MH7         PC8       Other9         All
                                  #                      Size6
                                                      Very
    Chattanooga      TN       626GF       Urban       Large          4,420     12,948      14,409      15,055       21,706     31,124      84,596      137,426
    Clarksville      TN       626GE       Urban       Large          2,182      5,433       4,809       7,159        9,572     15,505      13,270       38,347
    Cookeville       TN       626GH       Rural       Large          1,201      5,054       3,054       5,326        4,422      8,870       9,552       22,844
    Bowling
    Green            KY       626GC       Urban       Mid-Size         692      2,779           652      2,928       2,949      6,332        1,945       11,226
    Hopkinsville
    (Christian
    County)          KY       626GJ       Rural       Mid-Size         829      2,557       1,059        2,669       4,842      6,895        1,810       13,547
    Maury County     TN       626GM       Rural       Mid-Size         393      2,369         907        2,378         854      5,412        2,027        8,293
    Tullahoma        TN       626GG       Rural       Mid-Size         341      1,681       1,205        1,850       1,249      3,400        3,464        8,113
    McMinnville      TN       626GK       Rural       Mid-Size         451      1,640       1,047        1,687       2,182      5,541        3,856       11,579
    Dover            TN       626GA       Rural       Small            108        772           7          796         331      2,083            8        2,422



3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         10
                           CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                  Specialty Care                                                Tele-Health
          CBOC                                                Ancillary Services12
                                     Services11                                                 Services13
 Chattanooga                          Dental                      Laboratory                Tele Primary Care
                                 Anti-Coagulation                 Radiology
                                       Clinic                     Audiology
                                   Orthopedics                    Pharmacy
                                   Cardiology                Electrocardiography
                                   Pain Clinic                 Diabetic Retinal
                                                                  Screening
                                                                  Radiology
                                                                  Computer
                                                                 Tomography
                                                                 Social Work
                                                              MOVE! Program14
                                                                   Nutrition
                                                                Diabetes Care
                                                              Nuclear Medicine
                                                             Prosthetics/Orthotics
                                                             Pulmonary Function
                                                                     Test
                                                                   Chaplain
 Clarksville                     Anti-Coagulation                 Audiology                 Tele Primary Care
                                       Clinic                     Pharmacy
                                                               MOVE! Program
                                                             Electrocardiography
                                                               Diabetic Retinal
                                                                  Screening
                                                                 Social Work
                                                                   Nutrition
 Cookeville                               ---                  Diabetic Retinal             Tele Primary Care
                                                                  Screening
                                                                Diabetes Care
 Bowling Green                   Anti-Coagulation                     ---                   Tele Primary Care
                                       Clinic




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                          11
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN

   CBOC (continued)       Specialty Care Services   Ancillary Services    Tele-Health Services
 Hopkinsville                       ---             MOVE! Program          Tele Primary Care
 (Christian County)                                     Nutrition
                                                    Diabetic Retinal
                                                       Screening
 Maury County                       ---               Social Work          Tele Primary Care
                                                        Nutrition
 Tullahoma                   Anti-Coagulation          Radiology           Tele Primary Care
                                   Clinic
 McMinnville                        ---               Social Work          Tele Primary Care
                                                    Diabetic Retinal
                                                       Screening
 Dover                              ---                    ---                     ---




VA OIG Office of Healthcare Inspections                                                      12
                                                                      CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                                                                   Appendix B


                                                          PACT Compass Metrics 





                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                 13
                                                                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    14
                                                                      CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  15
                                                                    CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                16
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       September 2, 2014

          From:        Director, VA Mid South Healthcare Network (10N9)

       Subject:        CBOC and PCC Reviews of the Tennessee Valley
                       Healthcare System, Nashville, TN

             To:       Director, Regional Office of Healthcare Inspections (54SP)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

               1. I have reviewed and concur with the findings and
                  recommendations in the report of the CBOC and PCC Review
                  of the Tennessee Valley Healthcare System.

               2. Corrective action plans have been established with completion
                  dates, as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                      17
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       September 02, 2014

          From:        Director, Tennessee Valley Healthcare System (626/00)

       Subject:        CBOC and PCC Reviews of the Tennessee Valley
                       Healthcare System, Nashville, TN

             To:       Director, VA Mid South Healthcare Network (10N9)

                   1. I have reviewed and concur with the findings in this report.
                      Specific corrective actions have been provided for the
                      recommendations.

                   2. Should you have any questions, please contact Paul Crews,
                      Chief, Quality, Safety and Value, at 615-873-7080.




VA OIG Office of Healthcare Inspections                                                      18
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the CBOC is Americans with Disabilities 

Act accessible at the Maury County CBOC. 


Concur


Target date for completion: October 1, 2014 


Facility response: A work order has been submitted to Humana. Staff has been 

instructed to observe for individuals who would need assistance until the door has been 

adjusted and meets ADA requirements. 


Recommendation 2. We recommended that managers ensure staff can access the 

electronic version of hazardous materials information at the Maury County CBOC. 


Concur


Target date for completion: December 1, 2014 


Facility response: All staff have been re-educated about using the electronic version of 

MSDS with return competency demonstration on August 19 and August 20, 2014.

Follow-up monitoring of competency demonstration will be assessed and documented

for 90 days with metrics reported to the Quality Executive Board. 


Recommendation 3. We recommended that processes are improved to ensure the 

tracking of hazardous materials at the Maury County CBOC. 


Concur


Target date for completion: September 15, 2014 


Facility response: The list of hazardous materials has been received from the cleaning 

company. A hard copy of all chemicals is available in the Nurse Manager’s office. All 

staff will be educated about the location of the MDS book and how to find a listed

chemical. The book will be available to all clinic employees during clinic operating 

hours. 


Recommendation 4. We recommended that the effectiveness of the panic alarm

system is evaluated at the Maury County CBOC. 


Concur




VA OIG Office of Healthcare Inspections                                                      19
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


Target date for completion: November 1, 2014 


Facility response: Work orders have been submitted to Humana to evaluate and install 

additional panic alarms. 


Recommendation 5. We recommended that signage is installed at the Maury County 

CBOC to clearly identify the location of all fire extinguishers. 


Concur


Target date for completion: October 1, 2014 


Facility response: Signage identifying the location of the fire extinguisher has been 

ordered and will be posted upon receipt. 


Recommendation 6. We recommended that medications are secured and accessible 

only by individuals who either dispense or administer medications at the Maury County

CBOC, and that compliance is monitored. 


Concur


Target date for completion: September 15, 2015 


Facility response: A work order has been submitted to Humana to re-key the medication 

room lock. Only medication nurses will have a key to this room. The Nurse Manager 

will distribute keys as appropriate and monitor for compliance through observation.

Recommendation 7. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens during transport
from the Maury County CBOC to the parent facility.

Concur

Target date for completion: September 15, 2014

Facility response: The laboratory box has been secured to the door of the Maury County
CBOC. The box is secured with locks during transport to the parent facility to protect
personally identifiable information. 


Recommendation 8. We recommended that that that the information technology

server closet at the Maury County CBOC is maintained according to information 

technology safety and security standards. 


Concur

Target date for completion: August 15, 2014




VA OIG Office of Healthcare Inspections                                                      20
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


Facility response: The key to the information technology server closet has been secured
for access by authorized personnel only. This is in accordance to VA Risk Assessment
section Appendix B 2d; certifying that the facility has a list of personnel with authorized
access to areas containing information systems, issues authorization credentials and
reviews the list annually.

Recommendation 9. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: April 1, 2015

Facility response: The Primary care teams use the clinical reminders system and a tool
to screen, evaluate and document counseling of patients with higher the recommend
alcohol intake.

Performance of these tasks is monitored and reported as part of the EPRP Performance
monitoring. Follow-up of positive AUDIT-Cs in the primary care clinics was identified as
a problem in 2012. Efforts to improve performance have focused on:
   1. Improving the reliability of primary care clinicians in the use of the clinical 

       reminders to fully evaluate council and document measures to address

       patient’s alcohol consumption. 

   2. Informatics changes to the existing clinical reminders to require complete

       documentation. (Completed Dec 2013). 


With these changes we have had significant improvement in completion of Mental
Health Clinical reminders and performance on the Alcohol Counseling measures since
January 2014. Monitoring of compliance will continue through EPRP performance
measures.     Metrics will be reported to the Clinical Performance Improvement
Committee and with a target increase to 90 percent.

Recommendation 10. We recommended that CBOC and Primary Care Clinic
Registered Nurse Care Managers receive motivational interviewing training and health
coaching training within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: March 1, 2015

Facility response: Learning requirements for Motivational Interviewing and TEACH have
been added to the PACT RN Care Manager training requirements in the VA Talent
Management System (TMS). As new RN staff are hired for PACT, Motivational
Interviewing and TEACH is added to the learning profile and tracked for completion and
compliance. This new process allows generation of deficiency reports for the Nurse
Managers to use as a monitoring tool to schedule staff training. The Chief Nurse for


VA OIG Office of Healthcare Inspections                                                      21
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


Contract CBOCs will monitor deficiency reports for six months to ensure current RN
staff and new hires at the contract CBOCs are trained or scheduled for training within
the first three months of employment with a target increase to 90 percent. Compliance
metrics will be reported to the Quality Executive Board.

Recommendation 11.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: May 1, 2015

Facility response: The Medication Reconciliation Template was revised in May, 2014,
based on identified deficiencies. This template contains the essential elements of
medication reconciliation including medication counseling, patient level of understanding
and information about the medications. Compliance will be monitored with the metrics
reported to the Medication Reconciliation Committee and to the Quality Executive Board
for six months with a target increase to 90 percent.

Recommendation 12. We recommended that staff consistently provide patients with
medication counseling and written medication information that includes the
fluoroquinolone.

Concur

Target date for completion: May 1, 2015

Facility response: Providers have been given medication information (electronically) for
patient counseling by the Chief of Pharmacy. The Medication Reconciliation Template
includes the field that states “The patient, family and/or caregiver have been educated
on new medications including common and severe adverse reactions and/or side
effects by the prescribing provider. (Y/N).” Compliance will be monitored with the
metrics reported to the Medication Reconciliation Committee and to the Quality
Executive Board for six months with a target increase to 90 percent.

Recommendation 13. We recommended that staff document the evaluation of
patient’s level of understanding for the medication education.

Concur

Target date for completion: May 1, 2015

Facility response: Medications reconciliation in all outpatient clinics is monitored by the
Medication Reconciliation Committee. Poor performance is reviewed with individual
clinicians or clinics based on performance data.




VA OIG Office of Healthcare Inspections                                                      22
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN


A deficiency in documentation of patient education and evaluation of understanding in
the standardized medications reconciliation process was identified by the Medication
Reconciliation Committee in 2014. In May 2014 the following fields were added to the
template for medication reconciliation which is completed at each patient visits:

   ‐   Any learning barriers were considered, and the patient, family and/or 

       caregiver indicate good understanding and questions have been 

       answered to their satisfaction. (Y/N, Why Not) 

   ‐   All medications have been reviewed for interactions, appropriate dosing,

       duplications with other medications, and requirement for medical 

       treatment by prescribing provider. (Y/N) 

   ‐   The patient, family and/or caregiver have been educated on new 

       medications including common and severe adverse reactions and/or side 

       effects by the prescribing provider. (Y/N) 


Compliance will be monitored with the metrics reported to the Medication Reconciliation
Committee and to the Quality Executive Board for six months with a target increase to
90 percent.




VA OIG Office of Healthcare Inspections                                                      23
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Darlene Conde-Nadeau, MSN, ARNP, Team Leader
Contributors            Martha A. Kearns, MSN, FNP
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Karen McGoff-Yost, MSW, LCSW
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Carol Torczon, MSN, ACNP
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      24
                       CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Mid South Healthcare Network (10N9)
Director, Tennessee Valley Healthcare System (626/00)

Non-VA Distribution
House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Lamar Alexander, Bob Corker, Rand Paul
U.S. House of Representatives: Diane Black, Marsha Blackburn, Jim Cooper, Scott
 DesJarlais, Chuck Fleischmann, Stephen Fincher


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      25
                            CBOC and PCC Reviews at Tennessee Valley Healthcare System, Nashville, TN
                                                                                        Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    26
